<html>
<title> - GOOD BEGINNINGS LAST A LIFETIME: HOW THE FEDERAL GOVERNMENT CAN PROMOTE AFFORDABLE, QUALITY CHILD CARE</title>
<body><pre>[Senate Hearing 107-377]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-377
 
                GOOD BEGINNINGS LAST A LIFETIME: HOW THE
                     FEDERAL GOVERNMENT CAN PROMOTE
                     AFFORDABLE, QUALITY CHILD CARE
=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
              RESTRUCTURING, AND THE DISTRICT OF COLUMBIA
                              SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

               FIELD HEARING HELD AT ST. LOUIS, MISSOURI

                               __________

                            JANUARY 28, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs








                          U.S. GOVERNMENT PRINTING OFFICE
78-615                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND THE DISTRICT OF 
                         COLUMBIA SUBCOMMITTEE

                 RICHARD J. DURBIN, Illinois, Chairman
DANIEL K. AKAKA, Hawaii              GEORGE V. VOINOVICH, Ohio
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               THAD COCHRAN, Mississippi
       Marianne Clifford Upton, Staff Director and Chief Counsel
    Angela Benander, Legislative Assistant to Senator DurbinAngela 
           Benander, Legislative Assistant to Senator Durbin
Sandy Fried, Legislative Assistant to Senator CarnahanAngela Benander, 
  Legislative Assistant to Senator DurbinAngela Benander, Legislative 
                      Assistant to Senator Durbin
         Sandy Fried, Legislative Assistant to Senator Carnahan
  Lisa Jaworski, Legislative Aide to Senator CarnahanAngela Benander, 
  Legislative Assistant to Senator DurbinAngela Benander, Legislative 
                      Assistant to Senator Durbin
Sandy Fried, Legislative Assistant to Senator CarnahanAngela Benander, 
  Legislative Assistant to Senator DurbinAngela Benander, Legislative 
                      Assistant to Senator Durbin
         Sandy Fried, Legislative Assistant to Senator Carnahan
          Lisa Jaworski, Legislative Aide to Senator Carnahan
 Caroline Pelot, Deputy Director, Eastern Missouri to Senator Carnahan
               Andrew Richardson, Minority Staff Director
                     Julie L. Vincent, Chief Clerk







                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Durbin...............................................     1
    Senator Carnahan.............................................     3

                               WITNESSES
                        Monday, January 28, 2002

Lisa Eberle-Mayse, M.A., Director, Childgarden Child Development 
  Center.........................................................     4
Steve J. Cok, a parent of children in day care...................     6
Jo Ann Harris, a parent of children in day care..................     8
Janice Moenster, a parent of children in day care................     9
Teresa M. Jenkins, Director, Office of Workforce Relations, U.S. 
  Office of Personnel Management.................................    17
Sarah Kirschner, Missouri Childcare at Work......................    18
Penny Korte, Daycare Owner/Director, P.A.L.S., Highland, Illinois    21
Corinne Patton, Manager, Missouri Child Care Resource and 
  Referral Network...............................................    23
Kim E. Hunt, Illinois Network of Child Care Resource and Referral 
  Agencies (INCCRRA).............................................    26

                     Alphabetical List of Witnesses

Cok, Steve J.:
    Testimony....................................................     6
    Prepared statement...........................................    37
Eberle-Mayse, Lisa, M.A.:
    Testimony....................................................     4
    Prepared statement...........................................    33
Harris, Jo Ann:
    Testimony....................................................     8
    Prepared statement...........................................    39
Hunt, Kim E.:
    Testimony....................................................    26
    Prepared statement...........................................    62
Jenkins, Teresa M.:
    Testimony....................................................    17
    Prepared statement...........................................    43
Kirschner, Sarah:
    Testimony....................................................    18
    Prepared statement...........................................    52
Korte, Penny:
    Testimony....................................................    21
    Prepared statement...........................................    56
Moenster, Janice:
    Testimony....................................................     9
    Prepared statement...........................................    40
Patton, Corinne:
    Testimony....................................................    23
    Prepared statement...........................................    58

                                Appendix

Janet E. Maruna, Director, Early Childhood and Family Services, 
  letter dated January 25, 2002, with general views..............    65


GOOD BEGINNINGS LAST A LIFETIME: HOW THE FEDERAL GOVERNMENT CAN PROMOTE 
                     AFFORDABLE, QUALITY CHILD CARE

                              ----------                              


                        MONDAY, JANUARY 28, 2002

                                       U.S. Senate,
         Oversight of Government Management, Restructuring,
                 and the District of Columbia Subcommittee,
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., at 
the Childgarden Child Development Center, 4150 Laclede Avenue, 
St. Louis, Missouri, Hon. Richard Durbin, Chairman of the 
Subcommittee, presiding.
    Present: Senators Durbin and Carnahan.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Good morning. I want to thank all of you 
for joining us today at this field hearing of the Senate 
Subcommittee on the Oversight of Government Management. I am 
particularly happy to be here in St. Louis with my good friend 
and fellow Subcommittee Member, Senator Jean Carnahan. Thank 
you for joining us today in discussing a topic of importance to 
families all around America.
    I come across the river from Illinois. But since I grew up 
in East St. Louis, I know the St. Louis area a little bit. And 
it is great to be over here on this side of the river to meet 
with Jean and to talk about an issue that I think you will 
find, during the course of the day, is important to so many 
families.
    Typically, we conduct our hearings on Capitol Hill, but 
these hearings on the road give us a chance to meet with people 
and face their real problems. I can not think of a more 
appropriate setting to have a hearing on child care issues than 
this facility, which is innovative and colorful. Jean and I 
have had a chance to walk around to some of the classrooms and 
see the kids, who are in good hands, and apparently still 
celebrating the Rams' victory.
    Jean has been an enthusiastic champion in the U.S. Senate 
on the issue we are examining today: How are we going to be 
able to provide affordable, quality child care for working 
families across America. Primarily as a result of Senator 
Carnahan's leadership, Congress enacted legislation last 
November permanently authorizing the use of appropriated funds 
by executive agencies to provide child care services for 
Federal civilian employees. She deserves a round of applause. I 
was proud to be a co-sponsor of Senator Carnahan's bill.
    Parents rely on outside child care arrangements now more 
than ever. Whether by choice or necessity, balancing the 
competing demands of work and raising a family is a terrific 
challenge. The Children's Defense Fund reports that an 
estimated 13 million children under the age of six spend part 
of their day in the care of someone other than their parents. 
The U.S. Census Bureau reported for the first time in 1998 a 
majority, 51 percent of married couple families, had children 
and both parents had at least a part-time job. That is up from 
33 percent in 1976. In my home State of Illinois, 61 percent of 
all children under the age of six have working parents.
    When I grew up, of course, my mother worked. But she was 
home during the early years of my life. And then when my wife 
and I were raising our three kids, my wife stayed home and gave 
them special attention and care. And it was not until our first 
grandson came along and I started talking to my daughter about 
him that I realized that someone was going to have Alex all day 
long. And I said, ``Who are these people who are going to have 
my grandson?'' This was an important issue. Well, it is an 
issue that families face every single day. More and more 
families are turning to child care arrangements outside the 
home.
    Working families also have to struggle to pay for it, to 
try to make sure that they have the very best care that they 
can afford. Full day care can cost $4,000 to $10,000 a year, 
surpassing sometimes the tuition costs of public universities. 
According to 2000 data, child care for a 4-year-old child in 
the urban area of Illinois costs an average of $5,300 a year. 
Average public college tuition in Illinois was $3,845 a year. 
At the same time, Children's Defense Fund reports that more 
than one of the four families with young children earn less 
than $25,000 a year.
    The child care profession is also a demanding job. We want 
to make sure the very best men and women are taking care of our 
kids and grandkids. And a recent report by Education Week 
reveals the startling fact that a child care professional in 
the United States can expect to earn about as much as a parking 
lot attendant in the course of a year. Think about that. 
Someone is being paid as much or more to watch an empty car 
than to guard our greatest treasure: Our kids. In Illinois, 
child care workers fared slightly better than average, with an 
average annual income of $18,000 a year.
    We know there is a big gap between what children need and 
what we are providing them. And the Federal Government has an 
interest in making sure that families do have the very best 
tools so that their kids can grow up in a very positive and 
learning environment.
    A century ago, we learned the importance of a public 
investment in public education. It has paid off. It has made 
America a greater Nation. Now we have education reaching down 
to infancy, education at centers just like this one, where you 
have good, qualified people helping kids to learn the basics, 
spending an important part of each day with them.
    We are going to be hearing from several panels, but first I 
would like to recognize and thank her for her leadership: 
Senator Jean Carnahan.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman, and welcome to 
Missouri. We share not only a common border, but we also share 
a common concern for our youngest and most vulnerable citizens. 
I am pleased that we have the opportunity today to put the 
spotlight on the issue of child care.
    As a mother of four and a grandmother of two, I know 
firsthand how much children learn and develop in those early 
years. They are exciting times. Every day is full of new 
experiences, new lessons, and new accomplishments. A child's 
brain, as we all know, is literally like a sponge. It soaks up 
everything around, appreciating the small joys in life that 
sometimes we adults let go unnoticed.
    Parents have known for a long time what research is now 
only proving: That development in those early years is key to a 
child's success. What does that mean in terms of child care? It 
means that quality matters. It matters not only for those early 
years, but for a lifetime.
    This is not news to any of you in this room. You are the 
parents, and you are struggling to find a place that is good 
for your children that is within your means. And you are the 
child care center directors who work to create quality learning 
environments with insufficient resources. And you are child 
care workers who make a real difference in children's lives but 
barely make above the minimum wage. We ask a lot of each of 
you, and I want to recognize the outstanding contribution that 
you make to the lives of our children.
    The problems in the current child care system are not news 
to you, because you strive to overcome them every day. However, 
I think that many Americans would be shocked to learn about the 
gap between what we want for our kids and what the current 
system is actually able to provide.
    The reality is that child care is expensive, and parents 
can only afford to pay so much. Child care is a significant 
expense even for well-to-do families. It can be an 
insurmountable expense for low- to middle-income families. They 
have to make difficult choices about how to pay for child care, 
and all their other bills as well. Today, we will hear from Jo 
Ann Harris about the sacrifices that she is making for her 
family to pay for her child care bill.
    To have a quality learning environment for children, you 
need a trained staff. A child care director is competing for 
staff just like every other business. But while the little ones 
needing our care are priceless, the wages of the care givers 
are often low and cannot compete with higher paying, less 
demanding jobs in other fields.
    Even after a child care worker is hired, on average, 30 to 
40 percent will leave in less than a year. About 70 percent of 
the average child care center's budget is allocated for labor 
costs, and parents are not likely to be able to afford to pay 
more.
    How can this situation be improved? How can this self-
perpetuating cycle be changed? These are difficult questions 
with no easy answers. Today we will hear from Lisa Eberle-
Mayse, the director of this beautiful center, speaking about 
how she manages to balance the competing demands. These are 
real challenges even for model centers such as Childgarden.
    Today we will hear from the stakeholders involved in child 
care in Missouri and Illinois about their experiences and 
concerns, and their suggestions for how to improve the current 
child care system. We will explore the resources that are 
available to parents, businesses, child care workers, and child 
care centers to make better, more informed decisions. And we 
will also identify ways the Federal Government can assist 
families and employers and child care providers in the search 
for affordable quality child care.
    Last year, I introduced legislation to assist low-income 
Federal workers afford their care. And I am pleased to report 
that the proposal passed both houses of Congress, and President 
Bush has passed it into law.
    As this hearing will highlight, there is a shortage of 
trained professional child care workers. I will be announcing a 
plan that will pull together the resources of businesses, 
educational institutions, and government to address this 
pressing need. The proposal will be a public/private 
partnership aimed at three goals: (1) recruiting new people to 
enter the child care profession, (2) upgrading the quality of 
child care staff, and (3) creating incentives for civic, 
business, and not-for-profit participation in these efforts. I 
will reach out to the relevant child care stakeholders in 
Missouri, including parents and employers, to ensure that their 
views are represented.
    I would like to extend my thanks to all of you today, all 
the panelists who will be speaking, and the audience for 
joining us today. Mr. Chairman.
    Senator Durbin. Thank you very much, Senator. We will be 
hearing from two panels of witnesses, and I will call the first 
panel, which will describe the key challenges faced in 
obtaining and providing child care services, including 
availability, quality, and affordability. The second panel will 
be talking about best practices and innovative solutions which 
we might be able to use as national models. Let me welcome the 
first panel of witnesses, if they would please come forward. 
Lisa Eberle-Mayse, director of Childgarden, our host today. 
Thank you for being with us. Steve Cok is here. Jo Ann Harris 
from St. Louis. And Janice Muenster of Highland, Illinois. Mr. 
Cok, Ms. Harris, and Ms. Muenster are all working parents 
residing in Missouri and Illinois who depend on out-of-home 
child care for their kids. Thank you all for coming. We look 
forward to hearing your testimony.
    If you could confine your spoken statements to 5 minutes, 
we will make sure that your written statements in their 
entirety are made part of the record. And then Senator Carnahan 
and I will ask some questions. Ms. Eberle-Mayse, would you like 
to kick off. And thank you again for opening up Childgarden for 
this meeting today.

TESTIMONY OF LISA EBERLE-MAYSE, M.A.,\1\ DIRECTOR, CHILDGARDEN 
                    CHILD DEVELOPMENT CENTER

    Ms. Eberle-Mayse. Absolutely. We are very glad to be able 
to host.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Eberle-Mayse appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    My name is Lisa Eberle-Mayse, and I am the director of 
Childgarden Child Development Center, which is an Easter Seals 
and St. Louis ARC child development center. Childgarden is an 
accredited early childhood program committed to providing the 
highest quality care and education. The center serves children 
and families from a wide range of socio-economic levels, 
racial, and ethnic backgrounds. We are intentionally inclusive 
of children with special needs, with more than 25 percent of 
the children enrolled having a diagnosed disability or 
developmental delay. In addition to child care, we also offer 
therapy services for children with special needs.
    Childgarden opened its doors in 1989 with this commitment 
to diversity and inclusion, and in specific response to the 
fact that it is extremely difficult for families of children 
with special needs to find appropriate child care. We remain 
committed today because this need still exists, and because of 
the long-term impact of this philosophy. In a world that all 
too often fosters separation and segregation, the children of 
Childgarden grow up learning and growing together, exploring 
and celebrating the things that make us the same and the things 
that make us different. It is our passionate belief that these 
early experiences will yield a lifetime of benefit as these 
children carry a greater sense of tolerance into adulthood.
    Fulfilling this vision requires one thing above all others: 
A staff comprised of individuals who actively choose to do this 
work, who have the knowledge and skills to do their jobs well. 
At Childgarden, we are proud of our staff and the care, 
dedication, expertise, and love that they show to our children 
each and every day.
    However, attracting and retaining such a staff is without 
question the single biggest challenge we, and other child care 
providers, face every single day. Unemployment remains at low 
levels, which has driven up wages across many industries. The 
impact for child care is profound. In addition to competing for 
qualified candidates within our own field, we find ourselves 
competing with fast food restaurants, retail stores, and other 
industries. Yet the vast majority of child care providers 
cannot simply increase their fees to cover the current actual 
cost of care, much less to cover significant raises for staff, 
because only a handful of families could afford such increases.
    For example, at Childgarden, while our weekly infant fee is 
$198, the true cost of care for an infant is $324, or roughly 
$17,000 per year. According to the U.S. Census Bureau, the 
median family income for a family of four in Missouri is 
roughly $56,000 a year. The full cost of care in this situation 
would be 30 percent of the family's gross income, and that is a 
pretty significant figure. The impact becomes more real, 
however, when you consider that 50 percent of families fall 
below that median income.
    Consider another example. In the State of Missouri, a 
family of four earning $22,000 per year is not eligible for any 
State assistance with their child care costs. For this family, 
paying the true cost of care for one infant would represent 77 
percent of the family's income. The result? In our case, with 
no significant funding stream for child care scholarships, the 
result is fees that push the limits of families' abilities to 
pay, but that do not cover the true cost of operating a center. 
This, in turn, leads to continued low staff wages and higher 
staff turnover.
    The most recent statistics from the Center for the Child 
Care Workforce tell us that, nationally, the mean hourly wage 
for child care workers is $7.42. Occupations earning higher 
mean wages include service station attendants, tree trimmers, 
and food service workers. These low wages lead to turnover 
rates that range from a low of 25 percent annually to well over 
60 percent. And the saddest truth behind these statistics is 
that even individuals with the education, the skills, and the 
desire to remain in child care must sometimes choose to leave 
it in order to support themselves and their families.
    The impact of this cycle on our children and on our future 
as a Nation is enormous. We know from current research that, in 
order to learn and develop, children need to be actively 
engaged with an environment that is carefully designed. We know 
that children must have primary care givers with whom they can 
have strong relationships, and that these care givers must be 
knowledgeable about child development, a lot to ask of someone 
working for an hourly wage of $7.42.
    And yet we do ask it, and we will continue to ask it, 
because the needs of our children and our future demand no 
less. For centers like Childgarden who are fortunate enough to 
have the financial and program support of two established 
parent agencies and assistance from the United Way, the St. 
Louis Variety Club, and other donors, the task is a little 
easier. We are able to be relatively competitive within our 
field. We are not, however, able to come close to wages paid by 
Head Start, early childhood programs within the public schools, 
or other service industries outside the field of child care.
    It is sometimes said that one does not solve a problem 
simply by throwing money at it. While those of us in the field 
of child care would absolutely acknowledge the importance of 
good stewardship of our resources, the plain and simple fact is 
this: Sometimes there are problems that need money thrown at 
them. The care and education of our youngest children, our 
future, is one of them.
    Thank you for the opportunity to speak this morning and for 
your interest in supporting our future.
    Senator Durbin. Thanks, Lisa. Steve, you will be the first 
of three witnesses, parents who are dealing with finding good 
day care. Can you tell us your experience. And with your 
testimony, we will make it all part of the record. Give us 5 
minutes of summary.

TESTIMONY OF STEVEN J. COK,\1\ A PARENT OF CHILDREN IN DAY CARE

    Mr. Cok. Thank you for inviting me to this panel. My name 
is Steven Cok. My wife and I have two children: Philip, who is 
7\1/2\, and Nina, who is five. We both have full-time jobs and 
are highly dependent on child care outside of the home.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cok appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    We have had experiences with two day cares: First, the 
Child Enrichment Center, or CEC, which is housed and governed 
by the Richmond Heights Presbyterian Church, and second, Zelda 
Epstein Day Care Center, which I refer to as Zelda's, which is 
corporate-sponsored day care.
    Our experiences at the two day care centers shared 
similarities, but also had distinct differences. Both centers 
are not-for-profit, relatively small, and had warm family-like 
atmospheres. More importantly, these centers had a core group 
of teachers that were warm, loving, and had been working at the 
center for an extended period of time.
    CEC offered services for infant and toddlers, and was able 
to maintain these rooms at full capacity. However, there was a 
large attrition rate for children greater than 2 years old. And 
since the payroll of the day care was funded entirely by 
tuition income, a large variation in children enrolled for the 
older-aged classrooms created a financial burden to the day 
care as a whole. The church lacked the financial resources to 
make up for budget deficits, and in some instances, the 
director was forced to lay off employees in order to balance 
the budget. When enrollment increased, they were required to 
search for replacement teachers to maintain the proper student-
teacher ratios. These circumstances created overall instability 
to the day care environment, and the best-qualified and 
hardest-working teachers were over-tasked with filling in for 
teacher vacancies.
    Finally, because CEC had operated with limited financial 
resources, they were unable to provide competitive salaries and 
employee benefits, which made it even harder to attract 
qualified child care providers.
    Ultimately, fire safety regulations required the child care 
center undergo extensive renovations. And the inability to 
perform these changes resulted in closing of the day care.
    Zelda's is also financed through tuition income, and 
fluctuations in enrollment create significant strains on 
balancing the budget. In contrast to the CEC, budget deficits 
are corrected with loans from the sponsoring business. 
Moreover, Zelda's is able to provide teachers with the same 
employee benefits as company employees. And all of these 
factors contribute to the ability to attract and maintain 
qualified teachers, which provides a strong sense of stability 
and security for the staff and the parents. And I believe that 
providing a dedicated and qualified staff is crucial to a 
successful day care center and, most importantly, to the well-
being of the children.
    During the course of our day care experience, we have been 
challenged with some very difficult decisions. When Philip 
reached 2 years of age, he was moved to a new classroom with a 
new day care provider. It was clear from the beginning that he 
was not happy and obviously not adjusting to the new situation. 
Additionally, we were not satisfied with the quality of the day 
care provider. My wife and I adjusted our normal work schedules 
such that Philip spent the least required time in the day care. 
Knowing that our son was not happy created constant strain on 
us as parents, and it became increasingly difficult for us to 
concentrate on our normal daily tasks. It is hard enough to 
leave your child in the care of someone other than yourself, 
and it becomes nearly unbearable when you know that the child 
is truly unhappy.
    It was at this point that we chose to move Philip from CEC 
to Zelda's, and from the moment we enrolled Philip, we knew we 
had made the right decision. He made an immediate bond to his 
day care provider, and responded to the secure and loving 
environment that permeated the entire center. Our son's 
happiness was also reflected in the general well-being of our 
home and work life.
    When we joined Zelda's, the day care was made up of a 
diverse group of people that represented a variety of racial 
and social economic classes. Over time, this diversity began to 
disappear. The board of directors decided that the demographics 
of the center no longer reflected that of the community that 
the day care was charged to serve. It was at this point that 
Zelda's formed its scholarship fund. The scholarship fund 
provides tuition assistance based on income and family size.
    Since formation of the scholarship fund, Zelda's has seen 
an increase in minority representation at the day care center, 
and the majority of these were eligible for the scholarship 
assistance.
    My family is lucky. We were able to find quality day care 
for our children, and we have been able to afford it. This is 
not always the case for other families. As a member of the 
board of directors of Zelda's, I am proud that we were able to 
initiate a scholarship program so that lower income families 
can afford quality day care for their children too.
    And as the number of families with two working parents 
increases, so does the demand for quality affordable day care. 
It is increasingly difficult for not-for-profit day care 
centers to compete for qualified, well-trained care providers. 
And the ability to provide a choice for a safe, loving, and 
stable day care environment is the minimum that this country 
should offer to working parents.
    Thank you.
    Senator Durbin. Thank you very much, Mr. Cok. Jo Ann 
Harris.

TESTIMONY OF JO ANN HARRIS,\1\ A PARENT OF CHILDREN IN DAY CARE

    Ms. Harris. Good morning. My name is Jo Ann Harris, and I 
am 22 years old. My family consists of my husband, who is 26, 
my 2-year-old daughter, Aliyah, and my 4-year-old son, Keith. I 
am very grateful to have an opportunity to share my family's 
experiences with child care, because my husband and I both work 
full time, and we do not have a lot of help from relatives. So 
it is essential that we have a reliable and trustworthy 
environment for our children to be in 40 or more hours every 
week.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harris appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    My children attend preschool at South Side Day Nursery, 
which is located on Iowa at Arsenal in South St. Louis. My 
children arrive at the center at 7:30 a.m. and are picked up at 
5:30 p.m. Monday through Friday. Therefore, my children are in 
school up to 50 hours every week.
    The tuition I pay at South Side Day Nursery is based on our 
household income, and my children's tuition is $100 per week, 
which averages to $400 per month. I do not like to complain 
about the cost of my child care, because I have checked into 
prices at many other centers, and we are very fortunate and 
blessed to have found the quality of child care that we have 
for the price that we pay.
    But still, at times, my family has found it difficult even 
to afford the $400 a month with other household bills. I have 
been working a second job one night a week as a waitress, 
specifically to pay for child care each week. However, income 
reviews at the center are coming up in a month, and I am almost 
positive that, with the second job, the tuition fees will 
increase because my income has increased.
    But regardless of cost, quality child care is a necessity 
to working families. And I have had experiences with other 
centers when my children were younger that cost more than their 
current center, but did not have the quality of their current 
center. I could not afford a reputable center, so I had to take 
my children, who were not old enough to verbally communicate at 
the time, to a home-based day care center that was not very 
responsible or stimulating to my children's development. And as 
a mother, that was very unsettling for me, because I had no 
other alternative and no way to afford better child care for my 
children.
    But now my children have been at their current center for 2 
years, and I do not have to worry about them when I am at work, 
because I see their scheduled curriculum every week, and their 
teachers are genuinely concerned about my children's progress.
    I would suggest to any parent who is looking for child care 
to look into a few different centers before committing to one. 
There are quite a few Head Start locations here in St. Louis 
that offer tuition fees that are based on sliding scales, as do 
a lot of other centers that, in my opinion, are very good 
quality centers.
    What I hope is accomplished from this hearing is foolproof 
monitoring of parents' work or school attendance that do 
receive child care aid so that child care benefits are not 
abused. I think it would be fair to offer middle class families 
partial or temporary child care assistance based upon their 
income, their family size, and possible emergency situations. 
And as compensation for the aid, I think it would be very 
beneficial to families on aid and to the child care facilities 
if the family was required to attend monthly or weekly 
meetings, conferences, and support groups that many centers 
offer.
    And that is basically it. Thank you very much for your 
time.
    Senator Durbin. Thank you for your testimony. Janice 
Moenster.

 TESTIMONY OF JANICE MOENSTER,\1\ A PARENT OF CHILDREN IN DAY 
                              CARE

    Ms. Moenster. Thank you, Senator Durbin and Senator 
Carnahan, for the invitation to speak this morning. My name is 
Janice Moenster, and I represent a two-parent working family 
with two children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Moenster appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    Having two children, we have used almost every type of 
child care available: Relative care, family child care, center-
based care, Illinois State Board of Education Pre-K at Risk, 
and most recently, school-age care. I am going to talk 
specifically about one experience that had a tremendous impact 
on our family.
    When our son was three, we were using a family child care 
provider, and she recommended that we take our son to the early 
childhood screening offered by the school district. We took our 
son, and 3 months later, we were notified that our son had some 
speech and auditory delays. The good news was that he qualified 
for the State Board of Education Pre-K at Risk program. The bad 
news was that the program ran from 8:30 to 11:30, Monday 
through Thursday, 9 months out of the year, and there was no 
transportation, and the program was 20 miles away from where we 
lived. In addition, all parents had to volunteer once a month 
in the classroom.
    We knew our son needed the services in order to be ready to 
enter school ready to learn. But the challenges of how do we 
get him to and from the program, how do we volunteer in the 
program without losing our jobs, and who will care for our son 
when he is not in pre-K, will our current family child care 
provider accept our son for part-time care, or would we have to 
find new child care.
    After several stressful months and emotional moments, we 
worked things out. My employer understood my situation, and I 
worked my flex schedule. I organized a car pool and paid 
someone to car pool. Our family child care provider cared for 
our son part time, but we paid full-time care rates.
    Our family was fortunate. We found solutions to our 
problems. The big question is how many other families can not 
work through these issues, and how many children go unserved.
    Every parent wants to provide the best for their children. 
Sometimes, our ability to provide the best is not within our 
reach because of a variety of challenges, including a lack of 
financial resources to afford the best and highest-quality 
child care. Our family did not qualify for any child care 
assistance programs, and high-quality child care is expensive. 
However, it is an expense we felt was well worth it. When both 
of our children were in child care, we spent 15 percent of our 
gross family income on child care. Child care was our biggest 
monthly expense, higher than our mortgage or even food cost.
    Even when finances are not a barrier, you are presented 
with additional challenges, and that is a lack of accessible 
child care that meets your needs for an infant, a school-ager, 
or even a child with special needs; or finding a child care 
program that provides child care services on the weekend or 
midnight, which is very common for parents doing shift work; 
lack of extended family or a role model who can provide 
parenting support or education, information, and are resources 
on how to be a good parent; how to promote reading; or 
recognizing red flags in children's development; or even 
understanding developmental milestones so, as a parent, you 
have appropriate expectations for your children.
    Another challenge is the lack of employers who recognize 
that balancing work and family responsibilities is extremely 
difficult. Employers find that employees are more committed and 
more loyal to their employers when they support them with 
flexible workplace programs and policies that show they care 
about their people.
    How can Federal Government improve and support child care 
and families? First and foremost, we, as a society, must 
acknowledge that all families, regardless of income, should 
have access to the highest quality child care possible, and 
that child care should include all children. Recognize that one 
size does not fit all. Families need a variety of program 
options to meet their needs. Programs that provide full-day 
care, half-day care, full year, evening, weekend, before 
school, after school, and more are needed.
    All families are confronted with difficult times because of 
unemployment, exposure to substance abuse, sexual abuse, 
domestic violence, and mental health issues. Comprehensive 
social service support should be accessible and readily 
available to families.
    We have all heard the slogan, ``Good beginnings last a 
lifetime.'' Then let us give children and families a good 
beginning by continuing to fund or even expanding funding to 
programs like Parents as First Teachers, model parental 
training programs, and child care resource and referral 
programs that provide information, education, and support to 
families. Through proper support, families can be the most 
important teacher to their children.
    And support the other care givers that shape and mold our 
children, such as family child care providers, child care 
center staff, Head Start staff, early intervention, directors, 
and even grandparents and relatives who take on the care-giving 
role. This support is critical. Too many care givers leave the 
business of care-giving because of the lack of pay, benefits, 
respect, and growth opportunities. We need investments in the 
care giver through programs like T.E.A.C.H., Great START, 
credentialing, college loan forgiveness programs and other 
incentives, and livable wages so that people will want to enter 
the profession of teaching.
    When both of my children finally entered school, I assumed 
that my child care dilemmas were over, and that assumption is 
incorrect. School-age care is even more difficult to find since 
care is needed on a sporadic basis like holidays, school 
closings, or teacher in-service training days. Many families 
resort to leaving their children at home alone, without adult 
supervision. Therefore, incentives for schools to provide 
before- and after-school care on the premises is also 
encouraged, as well as full-year schooling.
    Curriculums for schools and child care should also focus on 
the whole child. A child's intellect, as well as their social 
and emotional capabilities, should be developed through 
character education programs, violence prevention, or even the 
peace builders program.
    Last, provide more incentives or give recognition to 
employers who provide vouchers for child care or provide on-
site child care or provide innovative workplace programs and 
policies.
    The children are our future. Good beginnings do last a 
lifetime. Let us put actions to our words.
    Senator Durbin. Thank you. Thanks for your testimony.
    It strikes me that, if you try to step back and look at the 
big picture and a little bit of history, that we are in an 
unusual moment. Basically, education as we view it in America 
was defined in the 19th Century. We decided in the 19th Century 
that, at the age of five, society would have an obligation to 
children to create public education. We also decided in the 
19th Century that it was a pretty good idea for schools to be 
in operation only 9 months out of the year, because kids had to 
get back and work on the farm. And we also decided that turning 
loose kids at 2:30 or 3 o'clock in the afternoon was perfect, 
because Ozzie and Harriet were waiting at home with cookies and 
milk. My, how the world has changed.
    Janice, your testimony here talks about how important it 
was for your child to get special attention and special help at 
an early age. Son or daughter?
    Ms. Muenster. Son.
    Senator Durbin. Your son, so he would be ready to come into 
the classroom and learn. And so early intervention and early 
opportunity made all the difference in terms of what he needed. 
So his education started a lot younger than the five years of 
age, thank goodness.
    You had a lot of help from your employer. It sounds like 
your employer was pretty supportive. What is your advice to us 
in terms of encouraging employers to be more receptive and more 
cooperative?
    Ms. Moenster. Well, I think that many employers look at on-
site child care as the first option. And I think typically that 
really should be the last option. I think employers really need 
to look at their policies in place. Can they take sick time for 
both their children as well as for yourself. Are there 
opportunities to really look at flexing people's starting and 
ending times. Or looking at 10-hour work days versus the 
traditional 8-hour day, or 40-hour work week. So I think 
employers need to be aware of options. I think they need some 
incentives to do that. It does not work for all employers. It 
depends on what kind of employer they are.
    Senator Durbin. And I think we have to share the success 
stories.
    Ms. Moenster. Yes, absolutely.
    Senator Durbin. When employers cooperate, and they get a 
lot more productivity and morale out of their employees, that 
is a plus for businesses.
    Ms. Moenster. And I think it is also economy driven. Right 
now, there is not this huge drive to find employees to work. 
And so employers do not have to offer wonderful packages to 
attract employees. Right now, employees are just thankful to 
have a job.
    Senator Durbin. Jo Ann, do you sense that this hill is 
getting steeper? The more you work, the more you are going to 
have to pay?
    Ms. Harris. Oh, yes. Luckily, my day care center and my job 
has both helped me a lot in both aspects also. I am not exactly 
sure what type of increases are going to go as far as getting 
more income in per month. But we are on a sliding fee scale, so 
I do know I am making $400 more a month. So that could possibly 
put me up in a higher bracket. But hopefully, though, I will be 
able to just stay on my feet, keep my head up.
    The day care center helps a lot as far as they even offer 
side scholarships of that sort to help reduce your rates even 
further when you do fall upon emergencies. So I was really 
blessed that they had those basically available to me such as 
scholarships and things like that, because had I been at a 
regular child care facility and was paying full fees, that did 
not offer sliding fees, my kids would have been out of day 
care, and I would have lost my job.
    Senator Durbin. Steve, now you found that Zelda's is a much 
better opportunity for your children, and you are involved in 
it personally. Is it a company sponsorship?
    Mr. Cok. Yes, INDEECO Corporation.
    Senator Durbin. And do they put a substantial subsidy into 
the operation of the center?
    Mr. Cok. Well, the center would not be operating at this 
point if it were not for INDEECO. The budget shortfalls always 
occur because you have basically a group of people that are 
eventually going to leave. And that is where all of your income 
comes from. And they all leave at the same time. But they do 
not all come in at the same time. And so there is a lot of 
balancing the books that is necessary. And without INDEECO 
acting, basically, as a friendly bank, I think this day care 
would have fallen apart, or we would have lost teachers.
    Senator Durbin. Lisa, let me ask you about the teachers. 
Does Childgarden offer health insurance for its employees?
    Ms. Eberle-Mayse. Yes. We offer it currently for the 
individual staff member at a very low cost. The cost for staff 
who have children, the coverage for the dependents is not 
something we have been able to do much with yet, and that is 
pretty high.
    Senator Durbin. My experience, in looking around my State 
and asking people, is that a lot of day care facilities do not 
offer health insurance.
    Ms. Eberle-Mayse. No. They can not afford to.
    Senator Durbin. They can not afford to because, obviously, 
it is expensive. And that expense has to be passed along to 
parents who are struggling with their own expenses.
    Ms. Eberle-Mayse. Right.
    Senator Durbin. I have introduced legislation called care 
givers insurance. The State of Delaware has already done this. 
They have said that, if you work in a child care facility, you 
qualify for Medicaid in their State; you are covered. I think 
that ought to be extended beyond child care workers to people 
working in nursing homes, personal care attendants for disabled 
people. Why is it that we are going to trust members of our 
family who are disabled, our parents, and our kids, that we 
would not want that worker to have the peace of mind of health 
insurance coverage. That strikes me as something that would 
create an incentive for some to come to this profession and 
others to stay.
    Ms. Eberle-Mayse. Absolutely. I think one of the really 
difficult choices that sometimes centers have to make is, do I 
put this--the money that I have, do I put it into making my 
salaries the highest they can be, so that I can be more 
competitive, and what has to give if I do that? Is it health 
insurance? Is it not as many resources for the kids? But one of 
the things--our highest percent should be salaries, no 
question. But there are lots of tough choices that end up 
happening for lots of centers relative to salary versus 
benefits. Is it money in your pocket, or is it money that is 
going to insure your continued health? It is a tough choice.
    Senator Durbin. Senator Carnahan.
    Senator Carnahan. Thank you. Tell us some more, Lisa. 
Follow up with that line of thought some more with the costs of 
your center and how sometimes you maybe have to cut corners. 
How do other child care centers handle this balancing act that 
you have to go through every day?
    Ms. Eberle-Mayse. It is a balancing act. And really the two 
pivots of the balance are staff salaries and fees. Every year, 
we have usually a fairly minimal fee increase. But every year, 
we struggle over exactly how much that is going to be, because 
the higher our tuition gets, the less likely we are to be 
able--as you talked about with Zelda--to be able to really 
maintain that amount of diversity that we have always had at 
Childgarden. We also know that we have to be competitive in 
terms of, at least within our field, the salaries that we pay 
our child care staff.
    We try to really minimize our non-salary expenses. We shop 
cheap. We are fortunate that we have two separate development 
departments that do lots of fund-raising for us, both for 
capital improvements and all the way down to art supplies from 
girl scout troops. So we get creative about finding ways to 
supply our classrooms and the things that we need.
    The other thing that we have put a lot of effort into is 
trying to make the workplace pleasant and supportive for staff 
in ways other than straight salary. That needs to happen too. 
But in the meantime, what can we do to make this a supportive 
and welcome place to work? Do you have places to put your own 
stuff? Do you have the opportunity to take classes and somebody 
is going to pay for you to do that? So we try to find ways to 
make it a good place to be in addition to the salaries that are 
paid.
    Senator Carnahan. Do you make use of volunteers? And is 
that an effective thing to do?
    Ms. Eberle-Mayse. Yes, it is. For us, it is a way of 
getting more hands on deck. And we participate in the foster 
grandparents program. We currently have three foster 
grandparents in our building. We just had a whole batch of 
students from SLU High School leave. They have been with us for 
a month. They worked with kids, but did tons of manual labor 
too, I will tell you what. So yes, we really try to recruit 
volunteers.
    The catch there is that, in our situation at least, we 
choose not to use volunteers to meet our State-mandated ratios, 
because we want to be able to have more control over the 
education, the training, and the performance of those 
individuals. So we use paid staff to meet those ratios, and our 
volunteers to be an extra pair of hands and to help bring the 
ratios down a little bit, but not officially. Did that answer 
your question?
    Senator Carnahan. Yes, thank you. Steve, you mentioned 
Philip?
    Mr. Cok. Right.
    Senator Carnahan. What did you see as the difference in a 
well-trained child care worker and one that was not, and how 
that impacted Philip, for instance?
    Mr. Cok. I think the ability to bond with the children. It 
was clear during drop-off times that he was unhappy at the CEC 
situation. He did not want to go to the teacher, did not want 
to be there at all. Transition times are always difficult for 
children, but this continued even on the pick-up. So it was 
clear that the teachers were not bonding. The way they talked 
about it, it was like they talked about, ``Yeah, he's having a 
difficult time. Yeah, it's difficult. It's not working well.''
    What we found when we went to Zelda's was that there was an 
immediate welcoming bonding of the teacher to the child. When 
issues came up, there was more discussion about ``Is there 
anything going on at home? '' ``What could explain this?'' So 
they were obviously reaching out, trying to understand the 
child as well as the family situation. That kind of quality 
just shines through. It is training, I guess, and a desire to 
be there, rather than just to have a job.
    Senator Carnahan. Miss Harris--Aliyah and Keith?
    Ms. Harris. Yes.
    Senator Carnahan. What other options would you have had for 
them if it had not been for this sliding scale arrangement? 
What would you have done?
    Ms. Harris. Honestly, I have no idea what I would have 
done. Actually, I think the only other alternative that my 
husband and I would have is to find new jobs. One of us would 
have had to switch our job, and one of us would have had to 
work on a different shift, so that one of us would have been on 
a day shift, and someone would have been on a night shift. That 
would have been the only other option we had. We both have very 
little family here, and the little family that we do have work 
the same hours that we do, Monday through Friday. So there is 
no other help from there. And we can not just go out and find 
another job paying a lot more. That all depends on your 
qualifications and your education. So that would have probably 
been our only other alternative, to work around each other's 
schedule, because I would not have been able to afford a 
regular facility, and I am above the income guidelines to get 
aid for child care.
    Senator Carnahan. Janice, how common would you say the 
experience is that you had? How common is it among your 
friends, for instance, having difficulty in meeting some 
special need? I imagine you have met others.
    Ms. Moenster. For most families, it is extremely difficult. 
Our son was actually on the waiting list for services. So we 
were thrilled when he got in, but then juggling and trying to 
make the arrangements to make sure he got those services. And 
all I kept thinking, when he was fifteenth on the waiting list, 
that was 15 kids who went without services because their family 
could not make those arrangements. So it is very common.
    Senator Durbin. Thank you very much, Senator Carnahan. 
Lisa, let me ask you this question. I think, in Illinois, to be 
a day care worker, you have to have an associate's degree, 2 
years of college. Is it the same requirement in Missouri?
    Ms. Eberle-Mayse. No. And I am not familiar with what is 
required in Illinois.
    Senator Durbin. I think that is the case. Does that sound 
right? Some say yes and some say no. We will have to check 
that.
    Ms. Eberle-Mayse. In the State of Missouri, there are 
requirements for college credit hours for directors. 
Accreditation requires a higher level of education or training 
for directors on down to assistants in the classroom. But what 
licensing requires is that----
    Senator Durbin. Ratios?
    Ms. Eberle-Mayse. Right. But they also require that people 
working in child care get 12 clock hours of training every 
year. They are getting ready to implement a more mandatory 
orientation and a first round of training that providers would 
get. But my opinion is that the requirements are fairly minimal 
in terms of licensing. Programs like ours that are accredited 
agree to subscribe to a higher level of training. And the 
baseline for that is typically a child development associate's 
credential or an associate's degree.
    I will tell you, though, that one of the things that we do, 
addressing the issue of having a place to go, having a lattice 
or a ladder that you can go up, we have people come work in our 
facility that we know have good practice, have good instincts 
with kids, have some training and education. And then we try 
really hard to grow those people. We invest money in training 
for them or school. We try to find scholarships and other kinds 
of things that we can do to help move them up the ladder. And 
there are salary increases that are attached to those higher 
levels of education. It is one of the things that came about 
because of the joint venture between Easter Seals and ARC.
    Senator Durbin. What kind of turnover rates do you find in 
the industry or in your facility?
    Ms. Eberle-Mayse. In our facility, we are fortunate. Ours 
are pretty low. Last year, ours was right around 18 percent, 
which is pretty low.
    Senator Carnahan. What do you attribute that to?
    Ms. Eberle-Mayse. The turnover?
    Senator Carnahan. Is it money?
    Ms. Eberle-Mayse. Yes, I think it is. And, actually, most 
of the people that we lost--that sounds like a terrible thing 
to say--were folks that were sort of trying out this business. 
And it is hard work. There are people that will come and start 
working as a sub or a volunteer, and they realize that they are 
going home exhausted every night, and they are not making much 
money. I think it is one of the reasons why the people that 
tend to stay are folks that look at what we do as a mission, 
quite frankly, that they see the importance of it.
    What is frankly criminal, however, is that the care of 
kids, and especially quality care, is actually being subsidized 
by substandard wages and by parents struggling to pay the fees.
    Senator Durbin. Steve, what is your experience at Zelda's 
with the people working there, the turnover rates?
    Mr. Cok. Well, I think Zelda's is much like this day care 
here, where they have a director who is very much interested in 
training and promoting child care as a career. And so rarely do 
they lose teachers due to unhappy environments. The majority 
probably moved on into the public education system for higher 
wages. And occasionally, people--this is just too much work for 
this kind of money. They can find better ways to make a living.
    Senator Durbin. Do you know what your turnover rate was 
last year?
    Mr. Cok. Last year, I do not know the exact percentages. It 
was probably 20 percent. And I do not know how the director 
ever finds replacements, but she always manages to come through 
and find qualified people.
    Senator Durbin. Great. Thank you all very much. I want to 
thank the first panel: Janice, Jo Ann, Steve, and Lisa.
    I invite our second panel of witnesses to please come 
forward: Teresa Jenkins, Director of the Office of Workforce 
Relations for the U.S. Office of Personnel Management in 
Washington, DC. Sarah Kirschner, from Missouri Childcare at 
Work. Penny Korte; she is with PALS of Highland, Illinois, a 
child care provider. Corinne Patton, Missouri Childcare 
Resource & Referral Network. And Kim Hunt, Illinois Childcare 
Resource & Referral Network.
    Well, Teresa, since you have come the furthest, you are 
undoubtedly the expert. We welcome you from Washington, DC, 
Teresa Jenkins.

    TESTIMONY OF TERESA M. JENKINS,\1\ DIRECTOR, OFFICE OF 
      WORKFORCE RELATIONS, OFFICE OF PERSONNEL MANAGEMENT

    Ms. Jenkins. Thank you, Mr. Chairman and Senator Carnahan. 
I appreciate being invited here today to discuss with you the 
child care subsidy program within the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jenkins appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    On November 12, 2001, President George W. Bush signed the 
Treasury and General Government Appropriations Act of 2002, 
which permanently authorizes executive agencies to use 
appropriated funds otherwise available for salaries and 
expenses to provide child care in a Federal or leased facility 
or through contract for civilian employees. And as you 
mentioned, Senator Carnahan, you introduced this important 
legislation.
    Amounts provided are to improve the affordability of child 
care for lower income employees. The legislation covers the 
children of Federal employees from birth through age 13 and 
disabled children through the age of 18. Congress previously 
provided the authorization to Federal agencies as a pilot 
project.
    An increasing number of Federal employees are discovering 
that affordable child care is getting more difficult to find, 
even when their own agencies sponsor on- or near-site child 
care centers. The affordability of child care for lower income 
employees remains out of reach as child care costs can 
translate to as much as 50 percent of total family income.
    Reduced child care tuition as a result of agency 
contributions permitted by law can have a significant impact on 
employees' ability to utilize safe and reliable child care. 
Benefits to the agencies include improved recruitment and 
retention of qualified personnel, lower absenteeism rates, as 
well as improved morale. Improved retention also results in 
significant recruitment and training cost savings to Federal 
agencies. And, of course, employee productivity is increased 
due to the reduced concern about child care.
    The Office of Personnel Management's regulations to 
establish a child care subsidy program provide Federal agencies 
with maximum flexibility to define lower income Federal 
employees and determine the size of the subsidy each employee 
receives, as agencies have different needs.
    The Office of Personnel Management provides agencies with 
models for determining employee eligibility and the amount of 
the tuition assistance subsidy. There is no cap on the 
percentage of child care tuition that will be subsidized.
    Twenty-three agencies currently offer a child care tuition 
assistance program for their employees. The use of the program 
by Federal employees has increased significantly over the 
years, as has the amount of funds the agencies dedicate for 
this purpose. The number of Federal employees utilizing the 
child care subsidy has also risen significantly since the 
inception of this program. Initially, 205 lower income Federal 
employees received tuition assistance, supporting 253 children. 
During the year 2000, the number of Federal employees grew to 
more than 800, supporting 1,033 children.
    Federal employees at pay grade levels GS-1 through GS-13 
received child care tuition assistance. But the majority of 
Federal employees receiving child care assistance is between 
GS-4 and GS-7, which equates to an average salary between 
$20,000 and $37,000 annually.
    The subsidy program allows Federal employees to use center-
based child care, as well as care in family child care homes, 
as long as they are licensed or regulated by the State or local 
regulating authorities. Our studies show that the majority of 
children are enrolled in child care centers versus family child 
care homes.
    The Office of Personnel Management is committed to 
supporting Federal programs that assist employees who are 
caring for children, as well as providing work and family 
flexibilities that help to balance these responsibilities.
    Although initial numbers of Federal employees utilizing the 
program were low, interest and participation grew rapidly. 
Agencies raised the eligibility threshold to allow for maximum 
utilization and used multiple and continuous marketing 
strategies to educate and encourage employees to utilize the 
program.
    During the pilot phase of the program, when the legislation 
was temporary, the Office of Personnel Management received 
comments from both agencies and employees stating their 
interest in implementing and using the program, but fearing the 
program would not be made permanent. Now that permanent 
legislation has been enacted--thanks in large part to you, 
Senator Carnahan--OPM expects a significant increase in agency 
and Federal employee utilization.
    Additionally, in past years, the pilots were implemented at 
a time of year normally difficult for parents to change child 
care arrangements. With permanent legislation, employees can 
take the time to secure quality child care at more convenient 
times throughout the year.
    This concludes my testimony. Thank you for inviting me here 
to be with you today, and I will be happy to respond to any 
questions.
    Senator Durbin. Thanks, Ms. Jenkins. Sarah Kirschner.

  TESTIMONY OF SARAH KIRSCHNER,\1\ MISSOURI CHILDCARE AT WORK

    Ms. Kirschner. Thank you, Mr. Chairman and Senator 
Carnahan, for the opportunity to discuss child care with you 
today. I will be focusing on what businesses do and how they 
are impacted by child care issues in the community and the 
workforces in which they operate.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kirschner appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    Approximately 10 percent of a large, diverse workforce has 
children under age six. Of the St. Louis area labor force, 24.5 
percent of workers have children under age 15. Employers are 
impacted every day by the children who are in unsafe or 
unregulated care, by the hundreds of school-age children left 
home alone, by the low wages paid to child care workers, and by 
the lack of funding for infant care.
    Some companies recognize the impact, but many do not. Yet 
employers are the biggest indirect consumer of child care 
because it is working parents who require child care, and it is 
those children now in care who are the future labor force.
    The private sector, including companies and philanthropic 
organizations, contributes only about 1 percent of the total 
spent on child care in this country. Because child care is 
funded primarily by parent fees, there is always a gap between 
what parents can afford and what it actually costs to run a 
program. When an employer sponsors a child care center, the 
company typically provides 20 to 40 percent of the annual 
operating budget.
    Missouri Childcare at Work was a unique project undertaken 
by Fred Epstein, a St. Louis business owner, and operator of 
Zelda's that we heard about earlier, an on-site child care 
center at his plant, and then-Missouri First Lady Jean 
Carnahan. It was a project to encourage businesses to consider 
on-site child care for their employees. Over the course of the 
project, about 300 people around the State attended meetings 
and listened to Mrs. Carnahan and Mr. Epstein.
    Two things made this project unique and valuable: The 
willingness of two visible people outside the child care field 
to speak out about the issue and capitalizing on Fred's 
business perspective and Mrs. Carnahan's knowledge of early 
childhood education, and the availability of funding to offer 
technical assistance to projects as they started out. Even with 
corporate dollars pledged to support a center, the staffs at 
these companies are not child care experts, and they have their 
own full-time job to do. Starting a project requires extensive 
research and legwork before anything can happen. In Missouri, 
there are limited start-up funds available for any child care 
programs, including those with employer sponsors, and few, if 
any, dollars for planning and community resource assessments 
that should also be done.
    Over the past 10 or 15 years, some employers have come to 
realize that child care is not as far removed from their lives 
as they once thought, and it impacts the entire workforce, not 
just those with children. The benefits of offering some type of 
child care program to workers are many. The obvious is that 
stable quality child care settings translate to fewer 
breakdowns and emergencies, fewer frantic phone calls during 
the workday, and fewer last-minute absences because the sitter 
called in sick.
    Many companies have documented other gains. At a small 
manufacturing company in Rolla, Missouri, there are 4 of the 25 
workers who are absolutely essential to plant production. All 
four currently use child care. And if just one of them is out 
for the day, the company loss is about $5,000 for that day. 
That loss affects the entire workforce, and it affects the 
bottom line.
    NationsBank estimated that, by using a child care resource 
and referral service, their employees save 12 to 15 work hours 
looking for child care.
    Although on-site child care is widely publicized and 
visible, it is very expensive. It may only serve a portion of 
the workforce, and it requires a long-term financial 
commitment. Fortunately, there are other options available to 
employers. Offering information on parenting or family care 
during work hours is one of the easiest, cheapest things an 
employer can do. Resource and referral is another low-cost 
option. These services match parents with care that meets their 
needs.
    There are two types of resource and referral services. 
There are the not-for-profit, usually State-funded, community-
based agencies, and there are for-profit vendors who buy 
databases of child care providers and sell them to companies. 
Both can offer lists to parents. But what the for-profits do 
not do is improve and expand the supply of child care in the 
community by training, recruitment, and so forth. This is an 
important distinction not often recognized by employers.
    Other options that employers consider are family leaves and 
other personnel policies, especially sick time and parental 
leaves, flexible work schedules, pre-tax savings plans, direct 
financial assistance to help pay for care, direct community 
support of scholarships, training opportunities, and other 
initiatives.
    Each option has costs and advantages and disadvantages. For 
a company with a young, primarily female workforce, the cost of 
an on-site center may be outweighed by the reduction of 
turnover costs. For an older, more stable workforce, offering 
information and referrals may be the best approach. And for a 
company that values their image as a corporate citizen, 
contributing to local child care improvement efforts may be the 
right approach.
    In the St. Louis area, there are many examples of companies 
who support child care and families. Brown Shoe Company has 
extensive scheduling flexibility. Washington University and 
Blue Cross/Blue Shield offer child and elder care resource and 
referral services. Twelve area hospitals or nursing homes have 
on-site child care centers, as do Monsanto, Ralston-Purina, and 
INDEECO. IBM, AT&T, Citicorp, and UAW-Ford have all directed 
money to the St. Louis region to improve child care and to 
recruit and train providers. And Bank of America provides a 
direct subsidy to low wage workers to help pay for care.
    My recommendations for how the Federal Government can 
promote affordable, quality child care are to continue to offer 
tax credits and other direct incentives to employers who commit 
resources to child care in their own workforces and in the 
community; to continue to offer information and resources 
through the Department of Labor Women's Bureau and other 
avenues; to offer start-up, expansion, and enhancement funds so 
that new programs can get started and existing programs can 
expand and improve; to support the national system of 
community-based resource and referral agencies who are in the 
field every day, working with employers, providers, and parents 
to build a better child care system; and to recognize and 
encourage others to recognize that learning begins at birth and 
that child care includes everything from infant care to 
programs for school-age children during summers, holidays, 
before and after school.
    Thank you again for your interest.
    Senator Durbin. Thank you very much. Penny Korte, from 
Highland, Illinois.

TESTIMONY OF PENNY KORTE,\1\ DAYCARE OWNER/DIRECTOR, P.A.L.S., 
                       HIGHLAND, ILLINOIS

    Ms. Korte. Thank you. My name is Penny Korte, and I own and 
operate a small day care center in Highland, Illinois, which I 
started on my own 12 years ago February 27 of this year.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Korte appears in the Appendix on 
page 56.
---------------------------------------------------------------------------
    As most of you here are well aware that a myriad of issues 
face child care professionals on a constant basis, it is my 
belief that the lack of respect given to my colleagues sparks 
most of these concerns. This lack of respect is then heightened 
as the many programs that are continually in focus of the media 
are negative when it comes to day care or pertain to the public 
or private sector of education for grades K through 12. Before 
children enter what most consider their formal education 
settings, the voice of many consider that children only need a 
babysitter to tend to their needs. But anyone that is familiar 
with the education system now understands that this is not the 
case anymore.
    I would be remiss to include everyone in that thought. 
However, those not in day care can not really ascertain what is 
involved. In Illinois and Missouri, day care centers are to be 
licensed and follow a set of guidelines that require knowledge 
of legal reading. We have to be educated in developmental 
issues, both physical and mental, be able to care for and teach 
at a variety of age levels, know medical symptoms, and be 
trained in first aid and CPR, complete a food preparation 
class, along with the knowledge of health safety issues in 
general, know how to recognize signs of abuse and report when 
necessary, nurture and encourage each child, yet second-guess 
every touch we give to protect ourselves from the many 
liabilities now forced on our profession.
    We take care of children from 6 weeks to 12 years for 
sometimes 11 hours or more a day. Even though we ourselves may 
not work the entire time, we end up spending more awake time 
with many of these children than their parents. At the same 
time, we are expected to react, protect, and educate four, 
five, eight, or ten children to one worker, depending on their 
ages. This emotional stress in itself of reacting or trying to 
prevent chaotic situations is one that I am sure many of you 
here today would agree is not where you might want to be.
    Yet my workers and those others in day care do this exact 
job Monday through Friday, more depending on the center hours, 
52 weeks of the year. And that in itself is an issue that 
everyone faces: Scheduling. How long should you be open, how 
many hours a day, what types of care do you provide.
    With a job description like that and the stress it entails, 
you might think the salary would be equal to that of a teacher. 
Wrong. In my town, employees are paid anywhere from $6 to $9 an 
hour, with the average being right around $7.50. This would 
make your annual income $15,600, and who can survive on that? 
Many times, these workers have children of their own too, and 
that cuts right into the already low figure that they are 
trying to live on. My current average pay is right at $6.25 an 
hour for my teachers. But I have other issues that I face 
myself.
    Recommendations I come to you with today are as follows:
    Make Federal money more easily accessible and acquirable to 
assist States for retention and continued education in day care 
for such programs such as Great START and T.E.A.C.H. in 
Illinois.
    Look into ways to fund programs that would also help in 
attaining health care and retirement benefits for job stability 
and continued education, somewhat similar to what K through 12 
teachers have. You choose child care for your life because you 
believe in what kids need and love children, not to get rich. 
That does not mean, however, you should remain at the poverty 
level all of your life. But you are pretty much guaranteed no 
retirement money if you can only barely survive on what you 
receive now.
    I would also suggest offsetting what the parents pay with 
increased tax benefits. This would make them more willing to 
pay the prices that we have to ask.
    When children are in school, they are being taken care of 
for their parents too. Yet they are being taught English, math, 
etc. But what we teach is how to learn, how to get along, and 
how to succeed. And though some would argue that teachers have 
a 4-year degree, I would counter with the question, how many of 
you would pay $6,000 to $8,000 for 4 years to enter a 
profession that pays back yearly less than $20,000 in most 
cases? Is there some way that the Federal Government could give 
State money back to offset real estate taxes already being paid 
to create some type of funding similar to that of public 
schooling? I am not asking for more taxes. Nobody would.
    I know that I am considered a for-profit independent 
center, but I am not sure why. I am still regulated by a 
government agency, and I would like to know what kind of profit 
is in my $17,000-a-year salary myself.
    My last request would be that the coverage given day care 
be more positive, or at least more in-depth. I would like to 
say that it is easy to get caught in the guidelines and 
requirements set forth by many agencies overseeing day cares. 
Many times, those who set up the rules have never even set foot 
or worked in a real center. Or maybe they have been in a pilot 
program, and that is great.
    It is easy to see how, in meeting the requirements of 
hiring an education-qualified individual, you might be ignoring 
a more experienced candidate who would naturally have been able 
to recognize the needs of that infant who is now in the 
hospital from being shook by your newly-hired 4-year-degree 
employee.
    I would like to congratulate Illinois on what steps they 
have taken to create some assistance for day care workers. I am 
not as familiar with that for Missouri; I am sorry. I would 
like to see more input from those people actually hands-on, 
however, versus those in offices, reading manuals and making up 
the rules and guidelines. Maybe more paperwork and rules are 
not what is necessary. Maybe just the right paperwork. Then we 
might all have more time to do our job better.
    To briefly summarize my key points, day care workers 
deserve the respect and compensations due them for their job 
description; Federal help would best be sought through funds or 
more funds to assist in retention and furthering education of 
workers, benefit programs for health care and retirement, 
bigger tax breaks for parents; and people in the field should 
be helping to make those guidelines.
    Thank you very much.
    Senator Durbin. Thank you very much. Corinne Patton.

 TESTIMONY OF CORINNE PATTON,\1\ MANAGER, MISSOURI CHILD CARE 
                 RESOURCE AND REFERRAL NETWORK

    Ms. Patton. Senator Durbin, Senator Carnahan, thank you for 
holding these field hearings today, and thank you for choosing 
``Good beginnings last a lifetime'' as the title of the 
hearing. I believe good beginnings, indeed, last a lifetime, 
and I am proud to be part of an organization that helps 
families make their own good beginnings.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Patton appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    I represent the Missouri Child Care Resource and Referral 
Network. Our agency coordinates the activities of the eight 
Child Care Resource and Referral Agencies that serve Missouri, 
CCR&R's for short. Each independent nonprofit agency serves a 
designated portion of Missouri's 115 counties. The Network 
manages contracts between the State agencies and local CCR&R's 
and handles several special child care related projects.
    Child care resource and referral agencies provide a number 
of services and special activities. And we have lots of printed 
materials outside in the hall. I hope you and the audience will 
take some.
    Finding, deciding on, and beginning to use child care 
becomes one of the earliest and least supported challenges for 
the working parent. CCR&R agencies support families in their 
search for child care. Each local agency maintains a database 
of child care providers and the pertinent information about 
their services. Referral specialists at each local CCR&R share 
that information with families in telephone interviews and 
through mail, fax, and E-mail daily.
    Last year, our eight agencies served over 20,000 families 
who were seeking care for more than 28,000 children. This is 
the referral part of resource and referral. These families 
received a list of referrals to help them narrow their search 
in finding the best child care provider for their child. Each 
caller also received printed consumer education material that 
offered points to consider in making the choice and questions 
to pose to prospective providers.
    For example, we recommend that a family consider the 
child's point of view and the kind of people and activities 
that will make the child comfortable. A child may wonder, who 
will care for me, are there plenty of toys that I can reach and 
enjoy, where will I keep my stuff, is everyone having fun, what 
will I do all day.
    The right child care provider will develop a positive, 
loving relationship with the child. This is a key indicator of 
quality care. The right care giver will also relate well to the 
parent and have values and attitudes that are similar to those 
of the family. Parents, and especially parents who are placing 
an infant and toddler, should watch the provider interact with 
children and consider these issues. Are children happy and 
involved? Does the provider seem warm and friendly? Is she or 
he calm and patient with the children? Does the provider listen 
to the children? Does the provider talk to them and encourage 
them to express themselves? And does the care giver have 
special training or credentials?
    Making a smart child care choice involves visits to several 
programs to compare and observe the program and the physical 
setting, as well as interviews with providers. The consumer 
education material that CCR&R's offer to every family puts the 
questions together in a concise package and details ways to 
continue to monitor the child's successful adjustment to child 
care.
    Families with children with special needs receive enhanced 
services from Missouri CCR&R's. Each local agency has an 
inclusion specialist on staff that works to help families find 
inclusive child care. This means that children with special 
needs are placed in program with typically-developing children. 
The inclusion specialist also offers services to providers to 
ensure that they have the training and skills necessary to 
serve the children.
    CCR&R's offer families help in navigating Missouri's child 
care regulatory system. The agencies can define terms such as 
licensed, license-exempt, unregulated, and accredited. The 
agencies refer parents to the Bureau of Child Care offices in 
the Department of Health and Senior Services for additional 
information and access to public licensing records.
    Our agencies also offer services to child care providers, 
the community, and to employers. Last year, our agencies 
provided almost 36,000 technical assistance contacts to child 
care providers. We offered over 9,000 technical assistance 
contacts to parents, 1,200 technical assistance contacts to 
employers, and over 12,000 technical assistance contacts to 
other people in the community who needed information such as 
things related to supply and demand data. And our local 
agencies mailed 162,000 child care-related publications.
    All the activities detailed above make up the resource part 
of resource and referral. The Network and the local agencies 
compile, analyze, and share information about child care. Our 
agencies develop and maintain databases by collecting detailed 
information about the supply of child care, the availability of 
subsidies, and other valuable community resources for families.
    We are acutely aware of the special hardships that low 
income Missouri families face when they seek affordable quality 
child care. Missouri may not have a waiting list for subsidized 
child care, but that is only because the subsidy eligibility is 
so restricted that very few families qualify. Missouri ranks at 
the bottom of the 50 States in our eligibility for child care 
subsidy.
    Child Care in the Workplace is the Missouri network's 
toolkit for employers interested in developing family-friendly 
workplace policies. This material was written so that employers 
can consider the full array of options available to them. As 
Sarah Kirschner indicated, there are many different kinds of 
options, such as seminars, leave policies, scheduling policies, 
financial assistance, support for community-based child care 
programs, and on-site and near-site child care centers. What 
our CCR&R's do not have right now are the staffing resources to 
dedicate themselves to really working on employer initiatives.
    We sit on many community boards, partnerships, and 
initiatives. We collaborate with community partners and 
encourage efforts to improve and shape services. Community-
based CCR&R's have a big-picture perspective combined with good 
local information. We exam systemic problems, identify 
barriers, and link other partners in finding solutions. We know 
that these solutions require the involvement of all sectors and 
segments of the community if we are to be successful in 
offering families that good beginning.
    The Network coordinates several special initiatives 
involving training, offering family child care providers an 
entrepreneurial or business aspect to their program, 
coordinating Heads Up reading literacy training, and offering 
consultation services to child care programs working toward 
accreditation.
    You have heard about T.E.A.C.H., mentioned before. We also 
manage the T.E.A.C.H. Early Childhood Program in Missouri. 
T.E.A.C.H. stands for teacher education and compensation helps. 
Missouri and Illinois are two of 19 States participating in 
this national initiative to increase education and compensation 
and reduce turnover in the child care workforce. Presently in 
Missouri, there are almost 100 early childhood teachers taking 
college courses through funds provided by T.E.A.C.H.. Each 
teacher receives either a raise or bonus from her or his 
employer at the end of a 1-year contract, and in return, agrees 
to remain employed at their sponsoring program. We hope that 
eventually our child care workforce will make more than those 
parking lot attendants.
    The Network and local CCR&R's are also members of NACCRRA, 
the National Association of Child Care Resource and Referral 
Agencies. NACCRRA represents almost 700 community-based CCR&R's 
from every State in the country. NACCRRA provides us with 
vision, leadership, and support, and promotes national policies 
and partnerships committed to learning and development of all 
children.
    While the demands for services from families, providers, 
and communities increase every year, our funding from our State 
contract does not. As Missouri struggles with its budget 
shortfall, core service funding to the Network, and 
subsequently to the local CCR&R's, was cut by 15 percent in the 
current fiscal year. This has resulted in the inevitable 
decrease in availability of some services.
    Funding a system of CCR&R services in each State with an 
entity such as the Network to coordinate and support services 
would ensure that child care resource and referral activities 
continue to reach families, child care providers, employers, 
and other community partners in that they collect and 
disseminate the data that leads to sound decision making. 
Language in the proposed reauthorization of the Child Care and 
Development Fund supports an earmarked funding for such a 
system, and that would help ensure that these services continue 
to be available for Missouri families and communities. And I 
ask that you support that language.
    Tomorrow is Child Advocacy Day in Missouri, and I thank you 
for the opportunity to get a little jump on being an advocate 
today.
    Senator Durbin. Thank you very much. And our last witness 
on this panel, Kim Hunt.

  TESTIMONY OF KIM E. HUNT,\1\ ILLINOIS NETWORK OF CHILD CARE 
            RESOURCE AND REFERRAL AGENCIES (INCCRRA)

    Ms. Hunt. Thank you, Senator Durbin and Senator Carnahan, 
for the opportunity to address you this morning on behalf of 
child care providers. I will be addressing the services of the 
Illinois Network of Child Care Resource and Referral Agencies 
(INCCRRA) and how the services support child care providers and 
quality child care in Illinois.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hunt appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    INCCRRA is an organization of 17 regional child care 
resource and referral agencies, R&R's, working together to 
improve access to high-quality child care in communities 
throughout Illinois. INCCRRA maintains the most comprehensive 
data on child care supply, child care program characteristics, 
and factors that influence a parent's choice of child care. The 
State network and local partners are currently involved in a 
number of initiatives that address the availability of quality 
services for children and families. One initiative is a part of 
First Lady Lura Lynn Ryan's Futures for Kids program, Quality 
Counts.
    INCCRRA administers several programs that are coordinated 
through individual R&R's. They are:
    The T.E.A.C.H. project, started in 1996 with 35 
participants. The program currently serves over 1,200 
recipients working in 81 counties. The program has assisted 39 
current providers in completing their degree. T.E.A.C.H. has 
effectively reduced the turnover rate to 6 percent for 
participants, compared to an annual turnover rate of 15 percent 
for child care teachers and 24 percent for assistant teachers.
    Professional development funds provide providers with the 
opportunity to attend activities that include college tuition, 
attendance in conferences, and credentialing programs. In the 
fiscal year 2001, providers completed 918 semester hours of 
college credit. An additional 4,868 providers completed 
training that applied towards credentialing and in-service 
hours.
    Gov. Ryan signed Great START, a wage supplement program for 
early childhood providers, into law in May 2000. Implemented in 
March 2001, there are currently 2,500 participants receiving an 
average wage supplement of $1,700 per year. For participants 
renewing their applications, the rate of attrition from the 
field was 7 percent.
    The Illinois Network for Educational Development is the 
beginning of a training tracking system. The system tracks 
Great START participants and their educational achievements, 
including credentials, degrees, and course work.
    Illinois Child Care is an AmeriCorps program to enhance R&R 
services and build literacy skills in young children, 185 
members have served within the R&R system since 1994, earning 
educational awards and valuable experience.
    The Illinois Trainer Network is a statewide training 
approval program that supports and compensates skilled trainers 
who deliver high quality and accessible training to providers. 
Over 350 certified trainers conduct 6 to 32 hour trainings in 
10 topic areas for 3,900 providers.
    Quality Counts Child Care Grants were implemented in 
January of this year to improve and expand early care and 
education services, $1.5 million has been allocated, with $.5 
million targeted for programs that serve infants and toddlers. 
Grants are awarded for equipment, materials, projects that 
improve quality or maintain space for infants and toddlers. 
These funds are also available to license-exempt or relative 
care providers.
    The statewide R&R training activities are delivered in many 
forms to respond to the diverse training needs of the child 
care professionals. Training workshops are the most common 
methods, followed by conferences. The use of self-study 
materials has steadily increased since 1996--37,000-plus child 
care professionals attended 2,339 workshops statewide, while 58 
conferences were sponsored and 895 child care professionals 
used self-study materials.
    Comments that I have heard from the field:
    ``Through Great START, a staff person was able to increase 
her salary by $1.90 per hour.''
    ``New directors receive their training on the job, and not 
necessarily through college courses. These funds enabled me to 
get additional training and support through more non-
traditional methods such as conferences and intense seminars.''
    And you can hear them in the halls: ``I got my check from 
Great START today.''
    For the past 2 years, Illinois has been recognized as one 
of the top 10 States to have made a difference in who is caring 
for kids. It is our hope that Illinois remains in the top 10 by 
continuing to be a role model for other States, maintaining and 
enhancing existing programs, and developing new and innovative 
initiatives.
    Thank you for today and your future successes to champion 
the welfare of children and families.
    Senator Durbin. Thank you very much. Senator Carnahan, 
would you like to ask the first round of questions.
    Senator Carnahan. Well, thank you for being a very 
interesting and informative panel. We will start here with 
Teresa. Based on the experiences that you have had at OPM in 
setting up the Federal Employees Child Care Assistance Program, 
what kind of advice would you give to employers who want to do 
this? Or even to State and local entities?
    Ms. Jenkins. Well, to follow up on something that the 
previous panel member, Janice, was talking about as far as 
workplace flexibilities, I think that that is absolutely 
important. And I am sure you know the Federal Government has 
been a leader in the use of alternative work schedules for 
Federal employees for many years. That allows Federal employees 
to vary their work week as well as vary the time at which they 
report to work. And that allows them to take care of family 
needs.
    Also, a relatively recent piece of legislation is the 
Family and Medical Leave Act, which also provides Federal 
employees with more options to take care of their child care 
needs. And as I am sure you know, Congressman Wolf and 
Congressman Hoyer are very much pressing telework within the 
Federal Government. And it too, I believe, can have a benefit.
    Again following up on something that Janice was saying, 
where Janice has a very unique and specific child care need, if 
employees are allowed to either work from home or from the 
office, it perhaps can open opportunities for selecting the 
appropriate child care center. So I think the workplace 
flexibilities are absolutely critical, the leave that employees 
are allowed to take, as well as part-time employment. Just a 
multitude of flexibilities to allow employees to balance the 
work and family responsibilities.
    Senator Carnahan. Thank you.
    Sarah, what would cause a business or employer to decide to 
have on-site care or provide care for their employees? And how 
can we encourage them to do this? What factors come into play 
here?
    Ms. Kirschner. That is an interesting question. I think 
there are two common ways. One is truly a bottom-up kind of a 
grass roots, where a company keeps hearing this issue over and 
over and over, and someone at the top is listening, and over a 
time of hearing that--child care, child care, child care--
begins to be willing to look at some options, and in the end 
may decide on on-site child care or some other option.
    The other way that this happens, I think, is the opposite. 
It is the top down, where the person at the top says, ``This is 
important to me.'' And typically it is because of something 
that has happened to them. Senator Durbin mentioned his 
grandchildren, and you will often hear that the president of a 
company, it did not click until his daughter went to work, and 
suddenly, ``We have to have child care.''
    So I think it comes from both ways.
    Senator Durbin. That sounds familiar.
    Ms. Kirschner. What we can do to encourage that, I think, 
is something that we have mentioned. And that is to continue to 
talk about the success stories, to continue to offer some 
incentives. The tax reform of last year does have a tax credit 
for employers that own and operate on-site child care centers 
or that use resource and referrals. So I think those are steps 
in the right direction, to continue to incent those efforts as 
well.
    Senator Carnahan. Thank you.
    Penny, what would you say is the single most important 
thing that we could do to encourage people to choose child care 
as a profession?
    Ms. Korte. That is an even better question. To make it more 
attractive. You can not make people choose. They have to have a 
love of working with children, because I have had people come 
to me that have thought that child care was an easy profession 
to be in. And they found out very quickly it is not an easy 
profession.
    However, to provide more funding for the Great START 
program, or just in general, health benefits and those types of 
things. I think that, to make it more attractive, we have to be 
able to compensate them for what they do.
    And that, I feel, is one of the biggest problems that there 
is, because, as many of us know, and it has been mentioned 
numerous times today, when you are competing with parking lots, 
where you do not have to think on the job and the stress is 
very minimal, compared to what you have to do on a daily basis 
in a child care setting, you want some compensation for that. 
You do not want to go home and feel like you have not only 
spent 8 or 9 hours, whatever your daily schedule is, working 
and stressing and emotionally burned out, but then to come home 
from that and feel like you have gotten nothing for it, it is 
not worth people's while.
    Senator Carnahan. How would you say, Corinne, that the 
T.E.A.C.H. program has benefitted the staff members that you 
know who have participated in it?
    Ms. Patton. Thank you. T.E.A.C.H. has had a wonderful 
impact, and we are in our baby steps compared with our 
colleagues in Illinois. T.E.A.C.H. is relatively new to 
Missouri. But I have had the privilege to speak with providers, 
early childhood teachers, who are going to school, whose 
tuition and books are being taken care of. And the feeling of 
support and professionalism, it is wonderful to hear. I think 
that they are feeling that this is giving them the recognition 
that this is a valuable profession. It is not babysitting; it 
is a serious and valuable profession. And supporting them in 
getting the opportunity to earn a decent wage and to be 
compensated and recognized for their learning and for the work 
that they put into it every day. It is such a tremendous job, 
and that is such a tremendous responsibility that they take on. 
But we have got to support these folks. And we can not do it on 
the backs of parents. There is no way we can charge parents the 
true cost of high-quality care.
    Senator Carnahan. It is a morale booster then?
    Ms. Patton. It is. It definitely is.
    Senator Carnahan. Kim, what would you say is the most 
frequently asked question by parents who seek your services?
    Ms. Hunt. By parents that are seeking referral services for 
child care?
    Senator Carnahan. Yes.
    Ms. Hunt. They are looking for that list of people who have 
vacancies. When we give them a list of providers, they want to 
know, ``Am I going to find a program that has a vacancy?''
    Senator Carnahan. Are they thinking quality? Are they 
thinking cost? Or some combination?
    Ms. Hunt. Right now, it is a vacancy issue. And then it is 
can I afford it, is it a place that I want my child to stay. It 
is a little bit of everything. But most cases right now in our 
areas, we are looking at vacancy issues, that there are not 
spaces available for infants and toddlers. And school-age care. 
There is a big demand in Illinois for school-age care. There 
are not enough programs to serve the needs.
    Senator Carnahan. Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator.
    Let me give a jump-ball question here. I would like to know 
if any of you could comment on the impact of two things that we 
are facing as a country. One is the recession, with eight 
million people unemployed. What impact has this had on your 
workforce, the number of people who are using child care, and 
the participation of businesses in child care? And the second 
one is welfare-to-work. We are about to reach a limit here, 5 
years, of people on welfare benefits. And I am wondering what 
impact this is going to have on some of your workers and 
whether any of you have people who were once on welfare that 
you know of, working in a child care setting, and perhaps you 
can tell us for the sake of this hearing what your experience 
has been with this transition. I will leave that open to anyone 
who would feel comfortable with trying to answer either one of 
those.
    Ms. Kirschner. I will jump in on the recession and 
participation of businesses question. I do not know that we 
have seen yet what the recession is going to do, how that will 
impact employers in whether they are going to be involved in 
child care.
    I guess what I would tell you is that good times did not 
cause them to just jump right in either. So I think employers 
are very reluctant to get involved in this issue, and with some 
good reasons certainly. But they, I think, mostly still see it 
as, ``This is not my problem, and I am not going to walk into 
this.'' And so I think, as I said, we did not see everybody 
jumping in with both feet during good times, so I can only 
imagine that that would continue during bad times.
    Senator Durbin. And what has been the impact of the 
recession; can anybody say?
    Ms. Patton. I would say that, strangely enough, the hard 
economic times brings more folks into the child care workforce, 
because those jobs are available and people are desperate for 
them.
    When the economy was very good, it was absolutely 
impossible to find a child care worker. So that is a rather 
bizarre turn. But because these jobs are not well paid, and 
there are often not many benefits, and it is difficult work, if 
folks can find a better-paying job somewhere else, they will 
take it. So that is an impact that I think we will see if this 
continues.
    With respect to welfare-to-work, I think that one of the 
real tough issues are folks who have left welfare, who have 
gotten modest paying jobs, and who need some help. They need a 
transitional period when they leave subsidy. You can not go 
from having your child care fees fully paid, and you get a 
dime-an-hour raise, and you have to pay them all yourself. That 
just does not work. We could not do that either if it came to 
us.
    So what we are not providing people is that gradual 
transition where they pay more and more, and eventually they 
pay it all, as their economic situation improves. We can not 
cut folks off, because then you have got people saying, ``No, 
do not give me the raise; I can not afford to take that raise. 
I can not afford to get a promotion; I will lose everything.'' 
That is a crazy situation that we have set up.
    Senator Durbin. I wonder who dreamed this up. Could have 
been Congress. We had better be careful.
    Any other reactions on those two issues, on the recession? 
Penny?
    Ms. Korte. Personally, as a day care owner, we have lost 8 
percent of our enrollment.
    Senator Durbin. Eight?
    Ms. Korte. Due to the recession, because we have had local 
businesses that have laid off staff or switched their hours 
from first shift to third shift or first shift to second shift. 
So now there are parents home, boyfriends at home, or whatever, 
that they do not need the day care during the day and that kind 
of thing.
    The welfare has not really hit me too much other than there 
are a lot more people putting in applications to come and apply 
for jobs. It has not changed the quality or the qualifiedness 
of that individual per se. I have many, many of the aide 
applicants, but not many teacher applicants. So if I lose a 
teacher, I am still not gaining anything by that. But I do not 
have any staff that is ready to leave looking for better-paying 
jobs right now, because there are not many out there to find.
    Senator Durbin. I asked the question earlier. Does Illinois 
require an associate's degree for direct aide workers?
    Ms. Korte. For the teacher-qualified individual, you have 
to have 2 years of education credit. You do not have to have an 
actual associate's degree. You can also substance that through 
1 year of work experience, full-time work experience, with 1 
year of education, but you must have six semester hours 
directly related to early childhood education.
    Senator Durbin. Teresa, let me ask you. When it comes to 
the day care centers for Federal employees, what quality 
standards do these centers have to meet?
    Ms. Jenkins. Well, regulations and the law governing the 
subsidy program require that the centers or the homes be 
licensed and/or regulated by State or local authorities. So 
what we require, then, is the only way that one can have a 
subsidy provided to them is if they choose a facility that is 
licensed or regulated by a State or local facility.
    I can give you an example of a welfare-to-work situation 
that I experienced. We had an individual in one of our Federal 
agencies. She was a GS-1, a welfare-to-work employee. And she 
was absolutely thrilled to have the child care subsidy provided 
to her, because she was using unregulated child care. She left 
her office early 1 day to go to the home to pick up her child--
she was using a home-based, unlicensed facility--only to find 
her child locked in a closet. So, I think, for the lower income 
employees, the subsidy is absolutely critical. And we are 
finding, within the Federal Government, that the lower the 
income, the greater the percentage of the subsidy.
    Senator Durbin. Both Illinois and Missouri must have some 
sort of life safety code, or they must be subject to 
inspection, I take it, for the facilities to meet certain 
qualifications. I look at this wonderful place with all of the 
things. That is the case in Missouri as well as Illinois, I am 
sure; is it not?
    Ms. Patton. It is, with the exception that there are 
numerous loopholes in Missouri licensing laws that exempt 
certain kinds of programs from being fully licensed. Church-
based programs are inspected for fire safety and health, but 
not fully licensed. So that means staff-child ratio, director 
qualifications, teacher qualifications, guidance and discipline 
do not fall under the regulation. And there are numerous other 
regulatory loopholes in Missouri.
    Senator Durbin. The reason I asked that, following up on 
Teresa's comment, was that we may soon face the debate on the 
faith-based initiatives, and the question as to whether or not 
certain standards applied to everyone else will apply to these 
new initiatives. And, I think, in many instances, at a minimum, 
we need to have parents notified that different standards are 
going to be used, and let them know that going in. At a 
minimum. There could be argument made that there should not be 
any variance on some very basic life safety questions when it 
comes to schools or day care centers. But we will save that 
debate for another hearing. Jean, do you have any other 
questions?
    Senator Carnahan. No.
    Senator Durbin. Well, I want to thank this panel very much. 
And I would like to thank the first panel and everyone who 
attended this hearing today.
    I would just say in closing that it is amazing to me that 
an issue as broad as this, that affects so many people, has not 
become a major national cause. When you take a look at where 
our country is headed and what families want the most, the most 
that they want is ``Take care of my kids. Help me. Give me a 
helping hand. Make it affordable.'' And time and again, I think 
we have all paid lip service to this at every level of 
government, and have not followed through on it.
    I really go back to a point I made earlier. If you are 
talking about the well-being and education of children, stop 
thinking in the 19th Century. This is the 21st Century. 
Families have new needs. Families have new demands. Children 
have new needs. And we had better be responsive, or we will pay 
the price for it down the line.
    I want to thank all of you, particularly those of you who 
are directly involved in day care. You do make a sacrifice to 
make it successful. And the parents who are struggling, we are 
going to try to do our best, at least, to give you a helping 
hand in meeting that burden so that those happy kids that I see 
at Childgarden I can see all across this country.
    Jean, if you would like to make a closing statement?
    Senator Carnahan. Again, thank you, Mr. Chairman, for 
coming over and holding this hearing and inviting me to be a 
part of it.
    I thank both of the panels. You have given us great 
information and wonderful ideas. And to hear the stories of 
your strength and your struggles is an inspiration for us. And 
we will take what you have told us back to Washington.
    I would also like to thank Lisa for having us here in this 
wonderful facility. Childgarden is a model, and it is something 
that we would like to have in a lot of other places around 
Missouri and Illinois.
    We know that the quality of a child's interaction in the 
early years has a significant impact on their brain development 
and their temperament, personality, and their ability to learn. 
Quality is especially important in a child care setting because 
children spend so much of their time there, and you have heard 
that today already, some as many as 40 hours or more in a child 
care setting. So we as a community need to make it a goal that 
quality care be available to all of our parents. Good 
beginnings do last a lifetime, and we need to make a good 
beginning the birthright of all our children. Thanks.
    Senator Durbin. Thank you all very much.
    [Whereupon, at 11:48 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 78615.001

[GRAPHIC] [TIFF OMITTED] 78615.002

[GRAPHIC] [TIFF OMITTED] 78615.003

[GRAPHIC] [TIFF OMITTED] 78615.004

[GRAPHIC] [TIFF OMITTED] 78615.005

[GRAPHIC] [TIFF OMITTED] 78615.006

[GRAPHIC] [TIFF OMITTED] 78615.007

[GRAPHIC] [TIFF OMITTED] 78615.008

[GRAPHIC] [TIFF OMITTED] 78615.009

[GRAPHIC] [TIFF OMITTED] 78615.010

[GRAPHIC] [TIFF OMITTED] 78615.011

[GRAPHIC] [TIFF OMITTED] 78615.012

[GRAPHIC] [TIFF OMITTED] 78615.013

[GRAPHIC] [TIFF OMITTED] 78615.014

[GRAPHIC] [TIFF OMITTED] 78615.015

[GRAPHIC] [TIFF OMITTED] 78615.016

[GRAPHIC] [TIFF OMITTED] 78615.017

[GRAPHIC] [TIFF OMITTED] 78615.018

[GRAPHIC] [TIFF OMITTED] 78615.019

[GRAPHIC] [TIFF OMITTED] 78615.020

[GRAPHIC] [TIFF OMITTED] 78615.021

[GRAPHIC] [TIFF OMITTED] 78615.022

[GRAPHIC] [TIFF OMITTED] 78615.023

[GRAPHIC] [TIFF OMITTED] 78615.024

[GRAPHIC] [TIFF OMITTED] 78615.025

[GRAPHIC] [TIFF OMITTED] 78615.026

[GRAPHIC] [TIFF OMITTED] 78615.027

[GRAPHIC] [TIFF OMITTED] 78615.028

[GRAPHIC] [TIFF OMITTED] 78615.029

[GRAPHIC] [TIFF OMITTED] 78615.030

[GRAPHIC] [TIFF OMITTED] 78615.031

[GRAPHIC] [TIFF OMITTED] 78615.032

[GRAPHIC] [TIFF OMITTED] 78615.033

[GRAPHIC] [TIFF OMITTED] 78615.034

                                   - 

</pre></body></html>
